                                            NATIONAL SCIENCE FOUNDATION
                                             OFFICE OF INSPECTOR GENERAL
                                                                                 1             1         1
                                              OFFICE OF INVESTIGATIONS

                                       CLOSEOUT MEMORANDUM
                                                                                                         Il
TO: AIGI        I   File Number: I92030007                                       Date: 16 May 2002
                                                                                                         I
Subject: Closeout Memo                                                                   Page 1 of 1


     There was no closeout written at the time this case was closed. The following information was
     extracted from the file in conformance with standard closeout documents.                            Il
     Our office was informed that the subject' was alleged to have plead guilty to 2 felony counts, 18
     USC 666 and 1341. $177,461.OO in grant funds returned.

     The attached documents constitute the closeout for this case.




     1
         Charles F. Schauf, Purdue University


                I   Prepared by:   I                Cleared by:            111
                                            U.S. Department of Justice

                                            Unired States Attomq,
                                           Southern Dirhict of Indiana



                                           thrired Stam C D u d w q 5th h       (317) 2266333
                                           46 EM    Ohio Sbccl
                                           Idnnqm~      IN 46201            FAX (317) 2266125


                                           November 30, 1992
                                 Press Release

         Deborah J - Daniels, United States Attorney, announced that
    criminal theft and fraud charges vere filed against the former
    Chairman of the Biology Department at IUPUI. CHARLES L. SCHAUF,
    Ph-D. age 49, of Indianapolis was named in a two count Information
    filed in U.S. District Court today. The Information alleges that,
    between December 1987 and April 1992, DR. SCHAUF stole almost
    $70,000 from research grants which he had been awarded by the
    National Science Foundation and the National Multiple Sclerosis
    Society,
         According to Larry Mackey, Assistant U. S . Attorney, the thefts
    vere first detected this past spring by the Internal Auditing
    Department of Indiana University.           Because the thefts, in part,
I   involved funds awarded by the federal government, university
    officials notified the Office of the Inspector General for the
    National Science Foundation in Washington, D.C.          Today's criminal
    charges r e s u l t e d from the OIGts subsequent investigation conducted
    by Special Agent Paul Coleman.

         DR. SCHAUF, who resigned his university positions following
    disclosure of his crimes, was Chairman of the Biology Department at
    IUPUI between 1986 and February 1992. In June 1987, DR. SCHAUF was
    awarded a total of $106,000 in research funds from the MS Society,
    a privately funded organization which supports research into the
    cause, prevention, alleviation and cure of multiple sclerosis, a
    disease of the human nervous system. The MS Society p a i d the funds
    to Indiana University to finance DR. SCHAUFts grant proposal.
    Between March 1988 and February 1990, DR. SCHAUF was also awarded
    approximately $177,000 from the National Science Foundation, a
    federal agency which provides financial support for a broad
    spectrum of scientific research.     The grants from both the MS
    Society and the NSF were to support research involving animal nerve
    cells to be conducted at the laboratories of IUPUI under
    DR. SCHAUFts direction.
         The Information alleges that DR. SCHAUF used almost $70,000 of
    the grant monies to buy items for himself and friends; including:
    a Macintosh computer, g i f . t certificates, 'desk ornaments, U.S. and
    European travel guides, tax return preparation publications, other
t   personal library purchases, Cross pen and pencil sets, computerized
            stock market services, eighty-four copies of a textbook which he
    -       had authored, a vatch, clock radio, camera, camera lens, and other
            photo equipment. The charges also a l l e g e that DR. SCHAUF generated
7




        )
            illegal payments directly to himself by submitting travel vouchers
            for trips which he did not take. In 'addition, acccirding to the
            Information, DR. SCHAUF directed illegal payments to staff and
            friends by submitting vouchers to pay them for work which was not
            performed. The criminal thefts involved $47,350.10 of NSF monies
            and $21,841.41 of MS Society monies.
                 The Information alleges that DR. SCHAUF defrauded the
            university, the MS Society and NSP by submitting false and
            misleading progress reports which, among other things, failed to
            disclose the persona1 diversion of funds and the fact that
            virtually all research had been ended by August 1989. The research
            vhich DR. SCHAUF conducted was unrelated to the purposes for which
            he sought and obtained the grant funding. As a result, nothing was
            published about research involving animal nerve cells.
                 Daniels observed that, upon detection of the abuse in the
            administration of the grants from the National Science Foundation
            and the MS Society, university officials demanded repayment of all
            grant funds from DR- SCHAUF. officials from the National Science
            Foundation and the MS Society confirmed that they have since
            received full restitution.       Regardless of the payment of
            restitution, said Daniels, "The prosecution of DR. SCHAUF for the
            crimes against the National Science Foundation and the National
            Multiple Sclerosis Society is essential to preserve the integrity
            of these grant programs. The research they fund is crucial to
            millions of people throughout the country; these scarce research
            dollars must be protected.''
                   Mackey stated that Count 1 of the Information charges DR.
            SCHAUF with violating a federal statute which makes it an offense
            to steal monies from any program which receives more than $10,000
            in f e d e r a l funds i n one year. If convicted of that o f f e n s e , the
            maximum penalty is 10 years imprisonment and $250,000 fine. Count
            2 of the Information alleges that DR. SCHAUF violated the federal
            mail fraud statute as a result of his fraudulent acts against the
            MS Society, which mailed its grant funds to the university in
            Indiana. Upon conviction of Count 2, DR. SCHAUF also faces a
            maximum penalty of 5 years imprisonment and $250,000 fine.
                 For further comment from the National Science Foundation,
            contact: PHILIP SUNSHINE at (202) 357-9457.
                 For further comment from the National Multiple Sclerosis
            Society, contact ARNEY ROSENBLAT, Public Relations Director, at
            212-476-0436.
                 For further comment from IUPUI, contact: JIM GREEN, university
            Relations, at (812) 855-8812.
                    NATIONAL SCIENCE FOUNDATION
                         WASHINGTON.D.C.    20550


                            August 25, 1993


  OFFICE OF THE
GENERAL COUNSEL

CERTIFIED MAIL-RETURN RECEIPT REOUESTED
Dr. Charles L. Schauf                      Dr. Charles L. Schauf




Re: Debarment Decision
Dear Dr. .Schauf:
On June 9, 1 9 9 3 , the National Science Foundation (NSF) sent you a
Notice of Suspension and Proposed Debarment. Our regulations
provided you 3 0 days from receipt of the notice to submit a
response. Over thirty days have elapsed since your receipt of
the notice, and you did not submit an oral or written response.
As discussed below, I have concluded that:
1) A cause for your debarment exists; and
2) The administrative record supports a three year debarment-
period from the'date of your suspension.
Accordingly, this serves as notice pursuant to 45 CFR 5 6 2 0 . 3 1 4
that you are debarred until June 9, 1 9 9 6 , from receiving Federal
grants.
The debarment shall be effective throughout the Executive branch
of the Federal Government. Debarment precludes you from
receiving Federal financial andnon-financial assistance and
benefits under non-procurement Federal programs and activities
unless an agency head or authorized designee makes a
determination to grant an exception in accordance with 45 CFR
S620.215.

The circumstances giving rise to your debarment are set forth in
detail in the Notice of Proposed Debarment dated June 9, 1 9 9 3 .
Your debarment is based upon your criminal conviction for theft
of funds from a federally-funded program and use of the U.S. mail
in furtherance of a scheme to defraud.
The Foundation's record establishes that you were Chairman of the
Biology Department at Indiana University, Purdue University,
Indianapolis (IUPUI) and a principal investigator on various
research grants from NSF and the National Multiple Sclerosis (MS)
Society awarded to IUPUI. You were criminally convicted of theft
of funds from a federally-funded program, in violation of 18
U.S.C. S666, and use of the U.S. mail in furtherance of a scheme
to defraud, in violation of 18 U.S.C. S1341. On December 9,
1992, you pled guilty to Counts I and I1 of an Information dated
November 30, 1992. Count I charged you with knowingly and
intentionally embezzling, stealing, obtaining by fraud and
otherwise converting to an unauthorized use approximately
$47,350.10 of National Science grant funds. Count I1 of the
Information charged you with use of the United States mails in
furtherance of a scheme to defraud the MS Society and IUPUI,
through the criminal embezzlement and conversion of $21,841.41 in
MS Society research grant funds. You were sentenced to twelve
months of imprisonment. Upon release from prison, you will be
placed on a supervised release for two yea-2s.
Your conviction for theft of funds from a federally funded
program, and use of the U.S. mail in furtherance of a scheme to
defraud establishes by a preponderance of evidence cause for
debarment under 45 C.F,R SS620.305 and 620.314(c).
It is the policy of the government to conduct business only with
responsible persons. 45 CFR §620,115. Responsibility includes
among other things, a satisfactory record of integrity and
business ethics. Debarment shall be used only in the public
interest and for the Federal Governmentis protection and not for
purposes of punishment. 45 CFR §620.115.
Your conviction reflects adversely on your integrity, honesty,
and present responsibility in relation to Federal financial and
non-financial assistance and benefits. You have committed
irregularities seriously reflecting on the propriety of further
Federal Government dealings with you. Accordingly, I have
decided that you lack present responsibility and that your
debarment is in the public interest.
Debarment may be for a period commensurate with the seriousness
of the cause. 45 C.F.R. §620.320(a). It should generally not
exceed three years, but where circumstances warrant, a longer
period may be imposed. 45 C.F.R. P620.320. If a suspension
precedes a debarment, the suspension period shall be considered
in determining the debarment period. 45 C.F.R. S620.320.
You have been convicted of serious offenses. You have pled
guilty to knowingly and wilfully embezzling and converting
Federal research funds by submitting false travel, expense, and
payroll vouchers and using Federal grant funds for personal
purchases. You were also convicted of knowingly and
intentionally devising a scheme to defraud the MS Society and
your employer through use of the mail. specifically, you
submitted fraudulent charges for payroll and expenses, and failed
to perform the research that you had proposed and promised to the
MS Society. Accordingly, I conclude that your conduct warrants
debarment for a period of three years, effective this date and
continuing until June 9, 1996.

                               Sincerely,


                               Dr. Mary E. Clutter
                               Acting Deputy Director
